No. 21-17

David Hargreaves,
Petitioner,
v.
Nuverra Environmental Solutions, et al.,
Respondents.
CERTIFICATE OF COMPLIANCE WITH THE WORD LIMITATIONS

I, Anthony G. Lantagne, hereby certify that the above referenced BRIEF IN
OPPOSITION, as indicated by the word count feature of MS Word, and including
footnotes but excluding those parts enumerated for exclusion under the rules, contains
7,866 words.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 1st day of September, 2021.

Lanta
egal Pr· tin
801 E. Main Street, Suite 100
Richmond, Virginia 23219
(804) 644-0477

COMMONWEALTH OF VIRGINIA
CITY OF RICHMOND

)
)

to-wit:

Anthony G. Lantagne appeared before me this 1st day o
that the foregoing certificate is true and exact to the st of

